-65

No.

IN THE
Jl

SUPREME COURT OF THE UNITED STATES

DAVID FRANKLIN MCNEES, JR.,

— PETITIONER

(Your Name)

vs.
CONNIE HORTON (WARDEN)

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

MICHIGAN SUPREME COURT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DAVID FRANKLIN MCNEES, JR.
(Your Name)
4269 West M-80
(Address)
Kincheloe, Michigan 49784
(City, State, Zip Code)
(906)-495-2275
(Phone Number)

'"ffcvEJVED
DFC «2 2020
OFFICE OP THE CI.ERK
SUf.^aiE COURT. U.S.

QUESTIONS PRESENTED

I
DID THE FEDERAL AND STATE COURT'S ABUSE THEIR DISCRETION WHEN THEY
MISAPPLIED THE LAW IN DENYING PETITIONER'S MOTION FOR A NEW TRIAL AND
GINTHER HEARING WHEN THE STATE COURT RllSET HIS JUDGMENT, RESETTING THE
HABEAS CORPUS CLOCK PURSUANT TO 28 U.S.C. § 2244(d)(1)(A)?
II
DID THE FEDERAL AND STATE COURT'S ABUSE THEIR DISCRETION WHEN IMPROPERLY
ASSESSING A VIOLATION OF BRADY WHERl! THE PROSECUTION WITHHELD THE CRIMINAL
HISTORY AND DEAL FOR TESTIMONY OF THE STATES WITNESS, IN VIOLATION OF MCR
6.201(A)(5), (B)(5). AND WHERE THE FEDERAL COURT TOOK ON THE ROLE OF W

JlM

III
DID THE FEDERAL AND STATE COURT’S ERR WHEN FAILING TO PROPERLY APPLY THE
LAW AND FACTS TO PETITIONER'S ACTUAL INNOCENCE CLAIM. DENYING PETITIONER
HIS RIGHTS TO EQUAL PROTECTION OF THE LAWS CONST. AM. XIV?
IV
DID THE FEDERAL AND STATE COURT'S ERR WHEN FAILING TO ADDRESS A FRAUD UPON
THE COURT THAT IS SUBSTANTIATED WITH FACTS NEEDING EXPANSION OF THE
RECORD?
V
HAS IT BEEN OVERLOOKED THAT PETITIONER'S FEDERAL AND STATE CONSTITUTIONAL
RIGHTS TO DUE PROCESS OF LAW WERE VIOLATED WHEN A LEGAL ACT UNDER MICHIGAN
LAW WAS USED AS A LISTED OFFENSE DURING TRIAL, AFFECTING THE ENTIRE
PROCEEDING?
VI
DID THE FEDERAL AND STATE COURT'S ERR WHEN FAILING TO ORDER AN EVIDENTIARY
HEARING TO SUBSTANTIATE PETITIONER'S CLAIMS OF CONSTITUTIONAL
VIOLATION(S). (1) PROSECUTORIAL MISCONDUCT; (2) INEFFECTIVE ASSISTANCE OF
TRIAL AND APPELLATE COUNSEL(S). WHERE HE HAS PROVIDED A PRIMA FACIE
SHOWING OF THOSE DEPRIVATIONS?

(i)

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

MCNEES V CLERK, COURT OF APPEALS, STATE SUPREME COURT CASE NO. 144406, DENIED May
21, 2012 (Appendix-Ul)

(ii)

TABLE OF AUTHORITIES CITED
CASES/MICHIGAN
Alexander v City of Detroit, 392 Mich 30 (1974).......

(31)

Cummings v Wayne Co., 210 Mich App 249 (1995)..........

(27)

Devillers v Auto Club Ins Ass'n, 473 Mich 562 (2005)

(7)

Kiefer v Kiefer, 212 Mich App 176 (1995).................

(28)

People v Adair, 452 Mich 473 (19%).........................

(35), 36)

People v Arenda, 416 Mich 1 (1982)...........................

(35)

People v Bowers, 135 Mich App 284 (1984).................

(32)

People v Bowman, 489 Mich 898 (2011).......................

(8)

People v Brantley, 296 Mich App 546 (2012)..............

(8)

People v Chism, 390 Midi 104 (1973).........................

(32)

People v Comer, 500 Mich 278 (2017).........................

(8), (9)

People v DerMartzex, 390 Mich 410 (1973).................

(32)

People v Garth, 93 Mich App 308 (1979)....................

(31)

People v Ginther, 390 Mich 436 (1973)......................

(5), (8), (36)

People v Holder, 483 Mich 168 (2009)........................

(8)

People v Johnson, 58 Mich App 1 (1975)....................

(31)

People v Johnson, 502 Mich 541 (2018)......................

(20)

People v Kern, 288 Mich App 513 (2010)....................

(8)

People v McNees, Unpublished Opinion C0A no. 337426 (2018)

(8)

People v Mitchell, 223 Mich App 383 (1997)........................

(32)

People v Robinson, 503 Midi 883 (2018)..............................

(20)

People v Sorscher, 151 Mich App 122 (1986)........................

(31)

People v Swain, 499 Mich 920 (2016)................. ................

(20)

People v Watkins, 491 Mich 450 (2012)...

(30)

People v Watson, 245 Mich App 572 (2001)

(33)

(iii)

People v Wolfe, 440 Mich 508 (1992)...........................

(18)

CASES/FEDERAL AND DISTRICT COURTS
Board v Bradshaw, 805 F3d 769 (6th Cir 2015).............

(7)

Crangle v Kelly, 838 F3d 673 (6th Cir 2016)..............

(7), (9), (11)

Douglas v Workman, 560 F3d 1156 (10th Cir 2009)........

(17)

Gagne v Booker, 680 F3d 493 (6th Cir 2012)................

(36)

Howard v Grinage, 82 F3d 1334 (6th Cir 1996).............

(31)

In re McDonald, 514 F3d 539 (6th Cir 2008)................

(15)

In re Wogenstahl, 902 F3d 621 (6th Cir 2018).............

(17)

Jefferson v United States, 730 F3d 537 (6th Cir 2013)

(16), (17)

Jideonwo v Immigration & Naturalization Serv., 224 F3d 692 (7th Cir 2000)

(10)

Kusay v United States, 62 F3d 192 (7th cir 1995).............. ......................

(9)

McClellan v Rapelji, 703 F3d 344 (6th Cir 2013)........ ......................... .

(36), (37)

McNees v Berghuis, case no l:15-cv-439 (W.D. Midi 2016).............. ........ .

(*)

McNees v Berghuis, case 16-2426 (6th Cir 2017)....................................

(5)

McNees v Horton, case no. l:19-cv-1028 (W.D. Mich 2020)...........................

(6)

Stanford v Parker, 226 F3d 442 (6th Cir 2001)..........................................

(25)

Thompson v N. AM. Stainless, LP, 520 F3d 644 (6th Cir 2008).....................

(7)

United States v Griffith, 17 F3d 865 (6th Cir 1994).................................

(7)

United States aex rel Wilcox v Johnson, 555 F2d 115 (CA3 1977)................

(36)

United States v Prather, 205 F3d 1265 (11th Cir 2000)..............................

(10)

United States v Tavera, 719 F3d 705 (6th Cir 2013)...................................

(17)

Williams v Coyle, 260 F3d 684 (6th Cir 2001).........................................

(7)

Workman v Bell, 227 F3d 331 (6th Cir 2000)............................................... (28), (29)
CASES/U.S. SUPREME COURT
Alcorta v Texas, 355 US 28 (1957).............................................................

(28)

Atlas Glass Co., v Hartford-Etapire Co., 322 US 238 (1944)........................

(27)

(iv)
0i

Banks v Dretke, 540 US 668 (2004)............................

(16)

Blackledge v Allison, 431 US 63 (1977)....................

(36)

Brady v Maryland, 373 US 83 (1963)..........................

(5), (11), (13-18), (20), (24)

Chambers v NASCO Inc., 501 US 32; 11 SCt 2123 (1991)

(25)

Chapman v California, 386 US 18 (1967)....................

(H), (29)

Donnelly v DeChristoforo, 416 US 637 (1974)...........

(33)

Estelle v McGuire, 502 US 62 (1991).........................

(33)

Evitts v Lucey, 469 US 381 (1985)............................

(37)

Giglio v United States, 405 US 150 (1959)................

(1*), (16), (18)

House v Bell, 546 US 518 (2006)............................... .

........ (20), (24)

Joint Anti Fascist Refugee Committee v McGrath, 341 US 123 (1951)

(37)

Keeney v Tamayo-Reyes, 504 US 1 (1992)....................

(25)

Magwood v Patterson, 561 US 320; 130 SCt 2788 (2010)

(7), (11)

Mooney v Holohan, 294 US 103 (1935).........

(28)

Murray v Carrier, 447 US 478 (1986)..........

(19)

Napue v Illinois, 360 US 264 (1959).......

(13), (14), (16), (18)

Nix v Whiteside, 475 US 157 (1986)...........

................. (29), (36)

Pannetti v Quarterman, 551 US 930 (2007)..

(15)

Pennsylvania v Ritchie, 480 US 39 (1987)..

(16)

Pyle v Kansas, 317 US 213 (1942)..............

(28)

Satterwhite v Texas, 486 US 249 (1988)....

(34)

Schlup v Delo, 513 US 298 (1995)..............

(19), (20), (24)

Strickland v Washington, 466 US 668 (1984)

(34)

Strickier v Greene, 527 US 263 (1999).......

(16), (17)

United States v Bagley, 473 US 667 (1985).

(16)

United States v Bailey, 444 US 394 (1980).

(18)

United States v Olano, 507 US 725 (1993)..

(33)
(v)

Universal Oil Products Co., v Root Refining Co., 328 US 575; 66 SCt 1176 (1946).(25)
STATUTES AND RULES
MICHIGAN
MCL 15.231 et. seq.

(18)

MCL 28.722............

(29)

MCL 750.520 et. seq

(30)

MCL 750.520b..........

...... (8), (29)

MCL 750.520b(l)(b).

(2), (7), (11)

MCL 750.520c.........

(8)

MCL 750.520d

(30)

MCL 750.520j

(35)

MCL 750.520n

.............(7). (8) (11)

MCL 768.27a.............................................

(29), (30), (32), (33)

MCL 769.12(l)(a) Public Acts 2006 NO. 655

(13)

MCR 2.612(A)(1).......................................

(9)

MCR 6.201(A)(5), (B)(5)...........................

(11)

MCR 6.435(A)............................................

(9)

MCR 6.435(D).................................... .

(10)

MCR 6.500................................................

•(*), (13)

MCR 6.502(G)................... ........................

(13), (20)

MCR 6.508(D)(2).......................................

(20)

MCR 7.208(A)(l-4)(B)(C)(l-2)...................

(10)

MRE 404b.................. ..............................

(30), (31), (32), (33)

MRE 412

(35)

FEDERAL STATUTES
28 U.S.C. § 2244(b)...

(14)

28 U.S.C. § 2244(b)(1)

(14)

(vi)

28 U.S.C. § 2244(b)(2), (b)(3)(C)

(15)

28 U.S.C. § 2244(b)(2)(B)...........

(17)

28 U.S.C. § 2244(b)(2)(B)(ii)....

(19)

28 U.S.C. § 2244(d)(1)(A)...........

; — Vv......... Oh (9)

28 U.S.C. § 2254........................

(6), (7), (13), (14), (15)

CONSTITUTIONS
Const. Ams V, VI, XIV.............. ..............................

(15), (19)

U.S. Const. 1963 Art 1 § 9 Clause 3 (Ex Post Facto)

(9)

U.S. Const. Am VI; Const. 1963, Art 1 § 20.............

(34)

U.S. Const. XIV......................................................

(15), (19)

U.S. Const. Am XIV; Const. 1963 Art 1 § 17

......(33)

U.S. Supreme Court Rules
RULE 6................... ...........

(25)

RULE 13

(6)

OTHER
Administrative Order 2004-6 Standard 4

(4)

(vii)

TABLE OF CONTENTS

1

OPINIONS BELOW

xii

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

xiii
(2)

STATEMENT OF THE CASE

xv

REASONS FOR GRANTING THE WRIT
I

DID THE FEDERAL AND STATE COURT’S ABUSE THEIR DISCRETION WHEN THEY
MISAPPLIED THE LAW IN DENYING PETITIONER'S MOTION FOR A NEW TRIAL AND
GINTHER HEARING WHEN THE STATE COURT RESET HIS JUDGMENT, RESETTING THE
HABEAS CORPUS CLOCK PURSUANT TO 28 U.S.C. § 2244(d)(1)(A)?
(7)
II
DID THE FEDERAL AND STATE COURT’S ABUSE THEIR DISCRETION WHEN IMPROPERLY
ASSESSING A VIOLATION OF BRADY WHERE THE PROSECUTION WITHHELD THE CRIMINAL
HISTORY AND DEAL FOR TESTIMONY OF THE STATES WITNESS, IN VIOLATION OF MCR
6.201(A)(5), (B)(5), AND WHERE THE FEDERAL COURT TOOK ON THE ROLE OF THE
(11)
JURY?
III
DID THE FEDERAL AND STATE COURT'S ERR WHEN FAILING TO PROPERLY APPLY THE
LAW AND FACTS TO PETITIONER'S ACTUAL INNOCENCE CLAIM. DENYING PETITIONER
HIS RIGHTS TO EQUAL PROTECTION OF THE LAWS CONST. AM. XIV?
(19)
IV
DID THE FEDERAL AND STATE COURT’S ERR WHEN FAILING TO ADDRESS A FRAUD UPON
THE COURT THAT IS SUBSTANTIATED WITH FACTS NEEDING EXPANSION OF THE
(25)
RECORD?
V
HAS IT BEEN OVERLOOKED THAT PETITIONER'S FEDERAL AND STATE CONSTITUTIONAL
RIGHTS TO DUE PROCESS OF LAW WERE VIOLATED WHEN A LEGAL ACT UNDER MICHIGAN
LAW WAS USED AS A LISTED OFFENSE DURING TRIAL, AFFECTING THE ENTIRE
(29)
PROCEEDING?
VI
DID THE FEDERAL AND STATE COURT'S ERR WHEN FAILING TO ORDER AN EVIDENTIARY
HEARING TO SUBSTANTIATE PETITIONER'S CLAIMS OF CONSTITUTIONAL
VIOLATION(S). (1) PROSECUTORIAL MISCONDUCT; (2) INEFFECTIVE ASSISTANCE OF
TRIAL AND APPELLATE COUNSEL(S). WHERE HE HAS PROVIDED A PRIMA FACIE
(33)
SHOWING OF THOSE DEPRIVATIONS?
(38)

CONCLUSION
(viii)

INDEX TO APPENDICES
APPENDIX-A PEOPLE V MCNEES, CASE NO. 160611, ORDER OF THE STATE SUPREME COURT
DENYING RECONSIDERATION OF SUCCESSIVE MCR 6.500, July 28, 2020
APPENDIX-B MCNEES V HORTON, CASE NO. 2045, ORDER OF THE SIXTH CIRCUIT COURT OF
APPEALS, DENIED 7/7/2020
APPENDIX-C MCNEES V HORTON, CASE NO. 1:19-cv-1028, ORDER OF THE FEDERAL DISTRICT
COURT, WESTERN DISTRICT, SOUTHERN DIVISION MICHIGAN, DENIED 1/10/2020
RECLASIFYING 28 USC § 2254, AND TRANSFERRING TO SIXTH CIRCUIT COURT OF
APPEALS FOR SUCCESSIVE HABEAS CORPUS DETERMINATION.
APPENDIX-D PEOPLE V MCNEES, CASE NO. 160611, ORDER OF THE STATE SUPREME COURT
DENYING REVIEW OF SUCCESSIVE MCR 6.500, April 29, 2020
APPENDIX-E PEOPLE V MCNEES, CASE NO. 349518, ORDER OF THE STATE COURT OF APPEALS
DENYING REVIEW SUCCESSIVE MCR 6.500, October 22, 2019
APPENDIX-F PEOPLE V MCNEES, CASE NO. 2010-1165-FC, ORDER OF THE STATE TRIAL COURT
RETURNING WITHOUT FILING SUCCESSIVE MCR 6.500, March 20, 2019, LETTER
FROM CLERK April 8, 2019
APPENDIX-G PEOPLE V MCNEES, CASE NO. 157912 & (47) ORDER OF THE STATE SUPREME COURT
DENYING REVIEW OF RESETTING OF JUDGMENT December 4, 2018
APPENDIX-H PEOPLE V MCNEES, CASE NO. 337426, ORDER OF THE STATE COURT OF APPEALS
AFFIRMING RESET OF JUDGMENT, April 19, 2018 AND ORDER DENYING REMAND,
September 20, 2017
APPENDIX-1 PEOPLE V MCNEES, CASE NO. 2010-1165-FC, ORDER OF THE STATE TRIAL COURT
DENYING MOTION FOR NEW TRIAL AND GINTHER HEARING. Mav 10. 2017: ORDER
DENYING RECONSIDERATION, May 31, 2037
APPENDIX-J PEOPLE V MCNEES, CASE NO. 302348, ORDER OF THE STATE COURT OF APPEALS
AFFIRMING THE FIRST JUDGMENT, March 15, 2012, MOTION TO REMAND
W/AFFIDAVIT, AND ORDER(S) DENYING REMAND(S), June 8, 2011, AND September
13, 2011
APPENDIX-K SENTENCING TRANSCRIPTS PAGE 29 LINES 19-21
APPENDIX-L DEFENDANT'S DEMAND FOR DISCOVERY August 11, 2010
APPENDIX-M PROSECUTION'S RESPONSE TO DEMAND FOR DISCOVERY August 12, 2010
APPENDIX-N LETTER FROM ATTORNEY BRETT DEGROFF (P74898), June 15, 2017 PROVIDING
SMITH'S CRIMINAL HISTORY
APPENDIX-0 SMITH'S REGISTER OF ACTIONS CASE NO. 2010-1166-FH, Generated January 11,
2019
y
*
APPENDIX-P TRIAL TRANSCRIPT VOL II PG 361 LINES 21-25; PG 362 LINES 1-6
APPENDIX-Q TRIAL TRANSCRIPT VOL III PG 485 LINES 16-25
(ix)

APPENDIX-R PEOPLE V MCNEES CASE NO. 2010-1165-FC, ORDER FROM THE STATE TRIAL COURT
DENYING REQUEST FOR DOCUMENTS November 30, 2012; AND ORDER DENYING
RECONSIDERATION December 14, 2012: ORDER DENYING SUPERINTENDING CONTROL
EX PARTE MOTION TO COMPEL AND SHOW CAUSE WITH MEMORANDUM AND AFFIDAVIT
January 22, 2014.
APPENDIX-S PEOPLE V MCNEES CASE NO. 2010-1165-PC, ORDER FROM THE STATE TRIAL COURT
DENYING 2ND REQUEST FOR DOCUMENTS May 10, 2017
APPENDIX-T INSTANT CASE POLICE REPORT NO. 10-003377, 39 pages
APPENDIX-U ATTACHMENTS TO INSTANT POLICE REPORT KDPS CASE NO. 07-003829 (ALEXA'S
FALSE RAPE ALLEGATIONS, [FAMILY MEMBER]). PPD CASE NO. 08-013012 (PRIOR
SEXUAL ASSAULT ON ALEXA).
APPENDIX-V PROBATE COURT TRANSCRIPTS CASE NO. 10-0137-NA, April 12, 2010 PAGES 7-8
APPEND1X-W PROBATE COURT TRANSCRIPTS CASE NO. 10-0137-NA, April 14, 2010 PAGES 136
APPENDIX-X E-MAIL CPS AGENT SARAH FONT April 20, 2010
APPENDIX-Y STD TEST RESULTS OF PETITIONER AND ALEXA JOHNSON
APPENDIX-Z TRIAL TRANSCRIPT VOL II PAGE 319 LINES 4-25 AND PAGE 320 lines 1-4
APPENDIX-A1 BORGESS MEDICAL CENTER DOCUMENT SHOWER INCIDENT, February 16, 2010
APPENDIX-B1 BORGESS MEDICAL CENTER DOCUMENT, 3 PAGES, PG 1 11 3 LINES 5-11 AND PG 2 11
1 LINES 1-2 September 10, 2009
APPENDIX-C1 JONATHON MCCORMICK'S AFFIDAVIT 9 PAGES
APPENDIX-D1 MR. DAVID FRANKLIN MCNEES, SR's. AFFIDAVIT 2 PAGES
APPENDIX-E1 RUTH ANN MCNEES'S AFFIDAVIT 2 PAGES
APPENDIX-Fl PETITIONER'S 2 AFFIDAVITS FILED WITH HIS SUCCESSIVE 6500
APPENDIX-Gl WARRANT PROBABLE CAUSE HEARING TRANSCRIPTS July 9, 2010, PAGE 5 LINES 34
APPENDIX-H1 PRELIMINARY TRANSCRIPT July 28, 2010 PAGE 23 LINES 22-25
APPENDIX-11 PROSECUTION'S CLOSING AND REBUTTAL TT VOL III, PAGE 459 LINES 7-11 PAGE
464 LINES 12-21 PAGE 465 LINES 10-13, 19-25 PAGE 466 LINE 1 PAGE 485
LINES 1-16
APPENDIX-J1 TRIAL COUNSEL’S CLOSING TT VOL III, PAGE 473 LINES 17-23 PAGE 475 LINES
16-25
APPENDIX-Kl JEFF SMITH'S PROPERTY FORECLOSURE 3 PAGES

(x)

APPENDIX-Ll APPELLATE COUNSEL' LETTERS April 25, 2011 PAGE 1 II 3 LINES 6-9; February
4, 2012 PAGE I! 2 LINES 1-4
APPENDIX-Ml ALEXA'S TESTIMONY ABOUT THE DISEASE TT VOL II PAGE 329 LINES 19-21
APPENDIX-N1 PEOPLE V MCNEES, CASE NO. 2010-1165-FC, ORDERS OF THE STATE TRIAL COURT
DENYING 6500, September 13, 2013; ORDER DENYING RECONSIDERATION ON
October 28, 2013; STATE COURT OF APPEALS CASE NO. 320527 DENIED April
29, 2014; (3) STATE SUPREME COURT CASE NO. 149486 DENIED December 30,
2014
APPENDIX-01 MCNEES V BERGHUIS, WESTERN DISTRICT OF MICHIGAN CASE NO l:15-cv-439
DISMISSED ON September 29, 2016
APPENDIX-PI MCNEES V BERGHUIS, ORDER OF THE SIXTH CIRCUIT COURT OF APPEALS CASE NO.
16-2426 DENIED May 17, 2017.
APPENDIX-Q1 PETITIONER'S MOTION TO REMAND WITH AFFIDAVIT, DIRECT APPEAL CASE NO.
302348 FILED August 2, 2011
APPENDIX-Rl TT VOL II WITNESSES TESTIMONY
APPENDIX-SI TT VOL III PETITIONER'S TRIAL TESTIMONY; CLOSING ARGUMENTS; JURY
INSTRUCTIONS
APPENDIX-Tl SENTENCING TRANSCRIPT PETITIONER'S ALLOCUTION PAGES 7-23
APPENDIX-U1 MCNEES V CLERK, COURT OF APPEALS, ORDER OF THE STATE SUPREME COURT CASE
NO. 144406, DENIED May 21, 2012

(xi)

JURISDICTION
[-J For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was---------- ------------- . ■
L. j] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

|X ] For cases from state courts:
The date on which the highest state court decided my case was April 29, ^j)20
A copy of that decision appears at Appendix iP_____
|X] A timely petition for rehearing was thereafter denied on the following date:
July 28. 2020
, and a copy of the order denying rehearing
appears at Appendix-A
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
. (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

(xii)

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend IV:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or affirmatioin,,)
and particularly describing the place to be searched, and the persons or things to
be seized.
U.S. Const. Amend. V:
No person shall be held to answer for a capital, otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor s)hall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use without just
compensation.
U.S. Const. Amend. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to e confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of Counsel for his defence.
U.S. Const. Amend. XIV § 1
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein

(xiii)

they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
U.S. Const. 1963 Art 1 § 9 Clause 3 EX POST FACTO CLAUSE
U.S. Const. Amend. XIV; Const. 1963, Art 1, §§ 17, 20
STATUTORY PROVISIONS
28 U.S.C. § 2244(b)(l)(2)(B)(ii), (b)(3)(C))
28 U.S.C. § 2254

(xiv)

REASONS FOR GRANTING THE PETITION
Petitioner is innocent of this crime. Schlup v Delo. He has been denied the
effective assistance of counsel and despite properly seeking an evidentiary hearing
People v Ginther, that has not occurred, and the prosecution has further withheld
the criminal history and the deal of a state witness who testified against me in
violation of Brady v Maryland.
The trial court resentenced me to Lifetime electronic monitoring in violation of
the ex post facto clause. And the resentencing triggered the reset of the habeas
corpus clock Magwood v Patterson, which the lower court has ruled on in error.
Denying me equal protection.

<xv)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
t.

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix -a
the petition and is

to

E /] reported at __L
; or,
[ ] has been designated for publication but is not yet reported; or,
I '] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ j reported at'_
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix^A-; 0, ' Q;o the petition and is
[X] reported at PEOPLE V MCNEES CASE NO. 160611, 157912 & (M)
[ ] has been designated for publication but is not yet reported; or,
P] is unpublished.
The opinion of the STATE APPEALS____________ _
appears at Appendix
to the petition and is
|X] reported at PEOPLE V MCNEES, 349518;337426;302348

_; or,
[ ] has been designated for publication but is not yet reported; or,
P] is unpublished.
1.

court

to

STATEMENT OF THE CASE
Petitioner McNees was tried in the Kalamazoo County (Michigan) Circuit Court on
three counts of first-degree criminal sexual conduct, (CSC-I), MCL 750.520b(l)b
(victim was at least 13 but less than 16 years of age).
Teresa McNees, biological mother to Alex Johnson's (AJ), testified that she is a
registered nurse working for PIP Borgess Hospital in Plainwell, Michigan. While not
called for the purpose of expert, her testimony could be considered expert testimony
When she stated Chlamydia is a sexually transmitted disease. She further testified
that after frequent unprotected sex with Petitioner, that she nor him ever had the
disease, and that recently Petitioner had given her a $10,000.00 cashiers check a
short time before AJ's allegations. (Trial Transcript, (IT) Vol II pg 270 lines 2122; pgs 271-273)
AJ testified that she met Petitioner in December of 2008, and that on Christmas
Eve she first had sex with Petitioner, and that she initiated the acts complained of
and that Petitioner supplied her with marijuana. (TT Vol 11 pgs 229-289). She
testified that Petitioner also introduced her to other men to be sexual with and
that one of them was Jeff Smith. She testified that her first time meeting Smith,
Petitioner and Smith took her back to Smith's house and had sex with her. (TT Vol II
pg 301 lines 15-23 and pg 302 lines 19-20). She testified that she told
investigators that Petitioner gave her chlamydia. (Appendix-Mi)
Jessica Dodd, the complainants friend testified that when she was 17 years old,
her and Petitioner had a consensual sexual encounter and that Petitioner asked her
to join complainant and him in sexual activity. (TT Vol II pgs 338-341, 343).
Jeff Smith, named co-defendant testified that he was in prison for sexual acts
with AJ, and that he received six to 22% years for agreeing to testify against
Petitioner. He testified that he did not participate in sexual acts that first day
or the first few times and that after 5 or 6 times he just caved and joined

(2)

Petitioner and AJ in sexual activity. That Petitioner would never let her have drugs
and that Petitioner called her his little slut and little whore. (TT Vol 11 pgs 345357.
Detective Mattison testified that Petitioner declined to speak to him when he was
notified of allegations against him. (TT Vol II pg 366-367)
Connie Black Pond, expert in the assessment and treatment of children and adults
who have been sexually abused and/or traumatized, she testified to the assessment
process for children who have suffered trauma and admitted she never interviewed AJ,
and that only two to three percent of children lie. (TT Vol II pg 371-399)
Christie Dewey, Petitioner's prior step-daughter testified that Petitioner
sexually assaulted her in the late 1980's and that Petitioner told on himself and
alerted authorities to these acts and promptly admitted guilt. (TT Vol II pgs 400413).
Petitioner testified on his own behalf and denied having sex with AJ, he did hot
have chlamydia. AJ made drug allegations against him to CPS right after he gave his
wife the cashiers check. He volunteered for a drug test and was negative for
metharophetamines and had a medical marijuana card and never gave or smoked marijuana
with AJ. lhat after the negative drug test AJ changed her story to include him in
her sexual allegations, and that AJ was aware of his prior conviction.
Petitioner denied having sexual contact with Jessica Dodd and he had a difficult
relationship with Jeff Smith. Petitioner admitted to the criminal conduct against
Ms. Dewey and why he told on himself so that he and Ms. Dewey could get help.
Petitioner did not review the police report, he only knew tdiat his wife told him
about the allegations, and that both Teresa's daughters had made allegations. He
further testified that he had a rocky relationship with AJ and did not give her
cigarettes. Also that Teresa had kept the money. Petitioner had grounded AJ for
failing to turn in school assignments, and that AJ also made drug allegations

0)

against him in 2009 vhen she moved to her dads house to live. Petitioner had barred
Jessica Dodd from the house on the day of the wedding after finding the girls and a
teenage boy engaging in inappropriate behavior on his and Teresa's wedding day.
Things with Alexa became more difficult thereafter. (TT Vol 111 pgs 422-451). See
(Appendix's- Q1 and R1 for transcripts)
Closing argunents and jury instructions followed and subsequently the jury
returned with a guilty verdict to all three counts. On January 18, 2011, Petitioner
was sentenced to 29 years 8 months to 55 years in prison.
APPEAL
Petitioner appealed as of right to the State Court of Appeals (SODA) submitting a
Brief pursuant to Administrative Order 2004-6 Standard 4, with a Motion to Remand
w/affidavit in support, see (Appendix-J), to establish his ineffective assistance of
counsel claim. The remand was denied and the conviction was affirmed on March 15,
2012 (Appendix-J). Petitioner then defaulted his State Supreme Court (SSCT) filing.
On August 13, 2013, he then filed a MCR 6.500 Motion for Relief from Judgment,
providing the police report of AJ's prior false rape allegations, and the probate
court investigation documents showing all AJ's inconsistent statements, AJ's
statement to CPS agent, Sarah Font, that the only one AJ was sexual with when being
infected with chlamydia was petitioner and finally the scientific test results for
the SID chlamydia showing AJ's positive test results and Petitioner's (Court
Ordered) negative test results. The trial court without an evidentiary hearing
denied relief on September 13, 2013. Petitioner then properly exhausted his claims
in the SQQA and SSCt. (Appendix-Nl). On April 21, 2015, Petitioner filed a habeas
corpus action McNees v Berghuis. case no l:15-cv-439 (W.D. Midi.), the court
dismissed the petition on September 29, 2016, because it was barred by the statute
of limitations. See (Appendix-01). And denied certificate of appealability.
Petitioner filed a notice of appeal in the Sixth Circuit Court of Appeals and

(4)

sought a certificate of appealability from that court, which denied the request for
a certificate, specifically finding that Petitioner had not made a substantial
showing of actual innocence. McNees v Berghuis, case no. 16-2426 denied May 17,
2017. (Appendix-Pi). While this case was pending in the Sixth Circuit the Kalamazoo
County Circuit Court amended Petitioner's judgment of sentence to add lifetime
electronic monitoring (LEM) without giving Petitioner notice. Such monitoring was
not the law when Petitioner was sentenced, and the ruling in People v Comer. 500
Mich 278; 901 NW2d 553 ( 2017), was decided after the amendment to this sentence.
Petitioner filed a notice of appeal and counsel was appointed. Petitioner filed a
motion for a new trial and Ginther hearing, a motion to expand the record, and a
motion for production of documents. The trial court denied relief stating the time
to challenge his convictions this way had expired. (Appendix-I).
On June 15, 2017 appellate counsel discovered Jeff Smith's criminal history (5)
felonies. (Appendix-N). Petitioner, with the assistance of counsel filed in the
SGQA, counsel raised one issue challenging LEM as cruel and unusual punishment in
violation of

the Eighth Amendment,

Petitioner

in pro per raised several

constitutional issues challenging his convictions. The S0QA refused to remand for
fraud upon the court and a Brady violation while refusing to address Petitioner's
pro per claims. (Appendix-H). Petitioner then sought leave in the SSCT which denied
leave on December 4, 2018. (Appendix-G)
On January 11, 2019, Petitioner, realizing that the prosecution had concealed
Smith's criminal history asked his Daughter to go get the register of actions from
Smith's case. (Appendix-0). Petitioner then discovered that the prosecution had
concealed his full deal as well, despite Petitioner's request for the information.
(Appendix-L).

And

the prosecutions

assurance of constitutional compliance.

(Appendix-M). Petitioner received this information on February 4, 2019. Realizing
that Smith's testimony was misleadingly false and the prosecution never corrected

(5)

it, Petitioner filed a successive motion for relief from judgment in the trial
court. He moved to expand the record as well with Appendices-L, M, N, T, U, V and W.
The trial court would mistakingly hone in on an affidavit and state that is uhat
Petitioner claimed was new evidence. A fact reached in error, as Appendix-L and M,
were the new evidence. The State trial court rejected the motion without filing
March 20, 2020 (Appendix-F). Petitioner sought relief in the SOQA who dismissed the
pleading on October 22, 2019 (Appendix-E). Then relief was sought in the SSCT and
while that case was pending Petitioner filed his writ of habeas corpus

USC § 2254

in the Western District of Michigan McNees v Horton, case no. l:19-cv-1028, and on
1/10/2020 they transferred the case to the Sixth Circuit Court of Appeals.
(Appendix-E)
On April 29,

the SSCT denied leave (Appendix-D). Petitioner filed a

reconsideration and while that was pending the Sixth Circuit on July 7 , 2020, ruled
and denied Petitioner case no 20-1045 (Appendix-#).
On July 28, 2020, reconsideration was denied by the SSCT. (Appendix-^).
Petitioner now files this Petition for a Writ of Certiorari, and it is timely
pursuant to Rule 13.

(6)

I
DID THE FEDERAL AND STATE COURT'S ABUSE THEIR DISCRETION WHEN THEY
MISAPPLIED THE LAW AND THE FACTS IN DENYING PETITIONER'S MOTION FOR A NEW
TRIAL AND GINTHER HEARING WHEN THE STATE COURT RESET HIS JUDGMENT,
RESETTING THE HABEAS CORPUS CLOCK PURSUANT TO 28 U.S.C. § 2244(d)(1)(A)?
STANDARD OF REVIEW
De novo review is used to determine a district courts decision to deny a 28
U.S.C. § 2254 petition. Board v Bradshaw. 805 F.3d 769, 771 (6th Cir. 2015). Issues
of law are reviewed de novo. United States v Griffith. 17 F.3d 865, 877 (6th Cir
1994). A due process claim is a mixed question of law and fact and is therefor
subject to de novo review. Williams v Coyle. 260 F.3d 684, 706-707 (6th Cir 2001).
ANALYSIS
Petitioner relies on Maewood v Patterson. 561 U.S. 320; 130 S.Ct. 2788 (2010);
Crangle v Kelly, 838 F3d 673, 680 (6th Cir 2016) in pursuit of justice.
After a three day jury trial in December of 2010, petitioner was found guilty of
3 counts of 1st degree CSC (victim 13-16); fMGL 750.520b(l)(%>)] and subsequently
sentenced on January 18, 2011, to 29 years 8 months to 55 years imprisonment. During
sentencing the trial court judge stated:
"As required by statute, if you achieve parole you are to enter into
lifetime electronic monitoring on all three counts." (Sentencing
Transcripts pg 29 lines 19-21) (Appendix-K)
However, the judge never included the lifetime electronic monitoring in the
judgment of sentence.
Here, the judge was legislating from the bench his own interpretation of Michigan
Statute MCL 750.520n, i.e., Lifetime Electronic Monitoring (LEM). This contravenes
the mandates of Thompson y N. AM. Stainless, LP. 520 F3d 644 (6th Cir. 2008)(court's
do not legislate from the bench and when they do they act outside of their
constitutional authority); See also Devillers v Auto Club Ins Ass'n. 473 Mich 562,
582 (2005)(holding same).

(7)

In 2011 the case of People v Kern. 288 Mich App 513 (2010) was controlling
concerning LEM where the court held:
"HN6 A person convicted under [MCL 750.520b or
sexual conduct coomitted by an individual 17 years
individual less than 13 years of age shall be
electronic monitoring as provided under section 85
of 1953 PA 232. MCL 791.285." Id at 518.

750.520c] for criminal
old or older against an
sentenced to lifetime
of the corrections code

See Also People v Bowman. 489 Mich 898 (20U)(af firming the same).
Petitioner's appeal in the Michigan Court of Appeals was determined on March 15,
2012.

(Appendix-J). Nevertheless, six years later the Michigan Department of

Corrections would contact the trial court to notify them that the judgment lacked
the LEM and on January 17, 2017, the trial court amended the judffnent to include
LEM, without notice to petitioner. Which is contrary to the holding in People v
Holder, 483 Mich 168 (2009)(A non party to the. criminal proceeding may only advise
not initiate. The court must notify the parties before taking action).
Ihe trial court relied upon the "new" interpretation of the statute MCL 750.520n
in the case of People v Brantley. 296 Mich App 546 (2012)(where the court determined
that "Any defendant convicted of CSC I under MCL 750.520b. regardless of the age of
the defendant or the victim, had to be ordered to submit to lifetime monitoring). It
must be noted Brantley was ruled on May 17, 2012).
After the amendment to the judgment Petitioner was granted a direct appeal. He
then challenged the conviction in the trial court via new trial and Ginther hearing.
It was denied. (Appendix-I). Counsel was appointed. Ultimately the Michigan Court of
Appeals agreed that Petitioner's "original judgment of sentence was invalid because
the trial court failed to include lifetime electronic monitoring". People v McNees.
Unpublished Opinion Court of Appeals (QQA) no. 337426 pg 3 II 1)

Ihe CCA went

further and noted that even if Petitioner raised issue of whether the trial court
had the authority to amend the judgment ... the argument would fail. (QQA op pg 3 H
3). The Court further determined (based upon People v Comer. 500 Mich 278

(8)

(2017)[decided June 23, 2017, (five months after the LEM attachment to Petitioner)],
that unlike Comer because this Petitioner was informed of it at sentencing the trial
court's correction was ministerial in nature and the.correction.of the judgment was
not substantive and because of the ruling in Comer and MCR 6.435A. this type of
error was correctable. (OCA op pg 4 U's 1-2). This was claimed to be a "nunc pro
tunc" (then for now) clerical mistake correctable under MCR 6.435A. (Appendix-H).
Michigan Supreme Court declined review. (Appendix-G)
DID THE JANUARY 17, 2017, "NUNC PRO TUNC" ORDER EFFECT A NEW,
UORSE-THAN-BEPORE SENTENCE?
Nunc pro tunc orders are customarily used only "to correct erroneous records,"
not to "revise the substance of what transpired or to backdate events." Crangle v
Kelly, 833 F3d 673, 680 (6th Cir 2016)(citing Kusay v United States. 62 F3d 192 (7th
Cir 1995). If Petitioner's January 2017 nunc pro tunc order merely corrected a
record to accurately reflect the court's actions, it would not be a new sentence
that resets the statute of limitations under 28 U.S.C. § 2244(d)(1)(A).
But that is not what happened here. The law did not apply to Petitioner when the
trial court ruled that he would be subject to lifetime electronic monitoring* The
nunc pro tunc "clerical error" impermissably walked back the "new" interpretation of
the statute. The trial court promulgated its own rules legislating from the bench,
and the successor judge chose to ignore the mandates of the Ex Post Facto Clause of
the United States Constitution 1963 Art 1 § 9 Clause 3. This is not merely a
correction of a clerical error.
The error also violated the mandates of MCR 6.435(A). The Michigan Rules of Court
provides comments to guide application of court rules. Under MCR 6.435(A). the
comments provide:
"Subrule (A) repeats verbatim the civil clerical mistakes rule. ICR
2.612(A)(1). Under this rule the court may correct an inadvertent error or
amission in the record, or in an order or judgment. The correction can be
made by the court at any time subject to the limitation in subrule (D)
pertaining to cases on appeal." ( Din.JTT '

(9)

MCR 6.435(D) provides:
"Correction During Appeal. If a claim of appeal has been filed or leave to
appeal granted in the case corrections under this rule are subject to MCR
7.208(A) and (B)."
MCR 7.208(A)(l-4)(B)(C)(l-2) pertinently provides:
"(A) Limitatioins. After a claim of appeal is filed or leave to appeal is
granted, the trial court or tribunal may not set aside or amend the
judgment or order appealed from except.
(1) by order of the Court of Appeals,
(2) by stipulation of the parties,
(3j after a decision on the merits in ,an action in which a
preliminary injunction was granted, or
(4) as otherwise provided by law.
<B)

• ••

(C) Correction of Defects. Except as otherwise provided by rule and until
the record is filed in the Court of Appeals, the trial court or tribunal
has jurisdiction.
(1) to grant further time to do, properly perform, or correct
any act in the trial court or tribunal in connection with the
appeal that was omitted or insufficiently done, other than to
extend the time for filing a claim of appeal or for paying the
entry fee or to allow delayed appeal;
(2) to correct any part of the record to. be transmitted to the
Court of Appeals, but only after notice to the parties and an
opportunity for a hearing on the proposed correction.
After the record is filed in the Court of Appeals, the trial
court may correct the record only with leave of the Court of
Appeals.
As admitted by the Federal District. Court Petitioner's case was pending in the
Sixth Circuit when the amendment occurred. (Appendix-B pg 2 11 2). The application of
LEM violated due process by making something apply to the judgment which was not the
state of the law Petitioner relied upon at the time of his trial and sentencing,
therein prejudicing Petitioner creating a manifest injustice. See Jideonwo v
Immigration & Naturalization Scrv.. 224 F3d 692, 700 n. 7 (7th Cir 2000); See also
United States v Prather. 205 F3d 1265, 1272 (11th Cir 2000).
For these reasons Petitioner now has a worse than before sentence and he should

(10)

be allowed to challenge the entire judgment i.e., the sentence and the underlying
conviction, by the resetting of the habeas corpus clock pursuant to Magwood, and
Crangle.
II
DID THE FEDERAL AND STATE COURT'S ABUSE THEIR DISCRETION WHEN IMPROPERLY
ASSESSING A VIOLATION OF BRADY, WHERE THE PROSECUTION WITHHELD THE
CRIMINAL HISTORY AND DEAL FOR TESTIMONY OF THE STATES WITNESS, IN
VIOLATION OF MCR 6.201(A)(5). (B)(5). AND WHERE THE FEDERAL COURT TOOK ON
THE ROLE OF TIS"JURY7
STANDARD OF REVIEW
Constitutional due process, whether it applies and, if so, has been satisfied is
reviewed de novo. Chapman v California, 386 US 18 (1967).
FACTS
On August 12, 2010, through attorney Juliane Meyer-Sorek, Petitioner filed a
Demand for Discovery pursuant to MCR 6.201 asking the prosecution to produce the
criminal history and deal for testimony of prosecution witness Jeff Smith.
(Appendix-L). Jeff Smith was listed as a co-defendant in this case. Petitioner was
never given the requested discovery in order to prepare for trial, despite
assertions of compliance by the prosecution in their Response to the Demand for
Discovery on 8/12/2010. (Appendix-M).
Petitioner was convicted following a three day jury trial, where credibility was
in issue. On December 16, 2010, Petitioner was found guilty on 3 counts of 1st
degree CSC (MCL 750.520(B)l(b)), and sentenced January 18, 2011, to 29 years 8
months to 55 years in prison. Petitioner then exhausted his Direct Appeal. On
January 17, 2017, the trial court resentenced Petitioner where his sentence would
reflect Lifetime Electronic Monitoring, (MCL 750.520n).
On April 26, 2017, Petitioner filed an appeal and Counsel Brett DeGroff was
appointed. During counsel's investigation, counsel discovered new and undisclosed
evidence and on June 15, 2017, he wrote Petitioner to inform him of the evidence,

(ID

which was the criminal history (5 felonies) of Jeff Smith, a State witness, labeled
a codefendant. Evidence never presented to the Jury. The evidence was not in trial
counsel's file. (Appendix-N)
Once Petitioner learned of this new evidence he asked his Daughter to go to the
clerk's office and get a copy of this witnesses Register of Actions. On February 4,
2019, Petitioner received this document, (Appendix-0). Petitioner then learned this
witnesses deal was much different than the jury was told. The record reflects:
"Q. What was the top end of the minimum guideline range?
A. I believe six and a half.
Q. Six and a half. So you made an agreement to testify and you got bot—
below the bottom end of the guidelines.
A. Six months, yes.
Q. Okay. So six months below the bottom end of the guidelines. If you gone
to trial, without cutting your deal with the prosecuting attorney's office
to testify against David McNees, what was the maximum sentence that you
could get on the minimum guideline range?
A. Six and a half to 22 and a half." (TT Vol II pg 361 lines 21-25: pg 362
lines 1-6). (Appendix-P)
Also that the prosecution stated in closing:
"Jeff Smith told you he got a sentencing agreement, that his sentencing
guideline said he should have done between six and—six and 22 and a half
years in prison. The agreement was—no, I got that wrong. He should have
done between six and a half and 22 and a half years in prison. His
sentencing agreement was he has to do minimally six. He got six months
shaved off of it. He's in prison for between six years and 22 and a half
years. Is six months motivation to come in here and tell you this
happened, and corroborate it with what everybody else said?" (IT Vol III
Pg 485 lines 16-25). (Improper vouching). (Appendix-Q).
This witnesses Register of Actions shows he was originally charged as a 4th
Habitual Offender, and that he entered into a deal to have the 4th Habitual dropped
to a 2nd Habitual and one count of CSC 3rd was dismissed. This supports that there
was a substantially different deal given in this matter, contrary to the testimony.
Petitioner realized this evidence was withheld and that the witnesses testimony was
misleadingly false because it deprived the jury a totality of the circumstances.
Therefore, without this knowledge the jury could not properly ascertain this key
prosecution witnesses veracity.

(12)

Having already filed a MCR 6.500 on August 13, 2013, Petitioner was only able to
pursue relief with this new evidence via MCR 6.502(G). So on March 1, 2019, the
motion under 6.502(G) was filed raising a violation of Brady v Maryland, 373 US 83
(1963). ihe trial court misidentified the new evidence and rejected without filing
the pleading* (Appendix-F). Petitioner then filed in the Court of Appeals, who
denied and also misidentified the new evidence of the Brady claim. (Appendix-E).
Petitioner filed in the Michigan Supreme Court who also misidentified the evidence
and denied leave to appeal, (Appendix-D), and denying reconsideration. (AppendixA)- The state failed to address the Brady claim, and the violation of Napue v
Illinois. 360 US 264 (1959).
Petitioner, had filed a motion to stay and a petition for Writ of Habeas Corpus
28 U.S.C. § 2254, in the District Federal court who erroneously determined that the
petition was successive and kicked it up to the Sixth Circuit Court of Appeals
(Appendix-©, and on July 7, 2020, the Sixth Circuit denied the petition as
successive and made the following determinations concerning the Brady. Napue
violations. (Appendix-fif)
SIXTH CIRCUIT COURT OF APPEALS OPINION JULY 7, 2020
The opinion admits that Petitioner asked for the evidence of Smith's deal and
criminal history, and it was not provided. Page 1 11 2 lines 12-13. That Smith
testified he received a 6 to 22% year sentence for testifying and had he not he
would have received 6% as a minimum if he did not testify. OP page 2 II 1 lines 1-4.
(had Smith gone to trial his 4th habitual status would have been reinstated thus,
substantially changing his sentence "to imprisonment for life or for a lesser
term.") See (PubActs 2006. No. 655. MCL 769.12(l)(a)). That Petitioner filed a 28
U.S.C. § 2254 in 2015, and in Ground VII alleged a denial of due process when the
prosecutor withheld evidence of Smith's plea agreement and criminal history, the
petition was denied as untimely. OP page 2 11 2 lines 1-4,

(13)

The Court admits to the newly discovered evidence and to when the evidence was
found and the content thereof. OP pg 2 11 3 lines 3-8. That the jury was unable to
weigh this evidence in this credibility contest. Id. at lines 8-10.
TOE BRADY. NAPUE. GIGLIO. VIOLATION
The court determined:
"McNees has not made a [Prima Facie] showing under § 2244(b). Although he
argues that his claims regarding Smith are based on evidence that could
not have been discovered previously, he notes that prior to trial, his
counsel requested the same information he now uses to support his second
or successive petition. Moreover, he obtained this newly discovered
evidence through public forums and has not explained why he could not have
obtained the information earlier." OP pag 3 11 3 lines 1-5.
That Smith's criminal history and the details of his plea agreement do not
establish that Smith committed perjury. Smith testified

•••

he was a convicted sex

offender prior to this offense. And that McNees had not shown the State's decision
to drop two habitual offender charges and one third degree CSC charge would have
resulted in a greater sentence reduction than six months, and has offered no proof
Smith testified falsely. OP page 3 11 4 lines 7.
ACTUAL INNOCENCE DETERMINATION/ROLE OF THE JURY
The court opined here, "even if the jury had known that Smith had five prior
felonies and had three charges dropped in exchange for his testimony, that does not
demonstrate that McNees is actually innocent, given the other evidence against him
at trial, including detailed testimony by the victim, the victim's friend, and
McNees's former stepdaughter regarding sexual assaults that McNees committed against
them." OP page 3 11 4 lines 7-8; page 4 U 1 lines 1-3.
Finally, that Petitioner had asserted a variation of this claim in his prior £
2254 petition, and because of that it cannot form the basis for obtaining
authorization for filing a second or successive petition and is subject to
dismissal. See 28 U.S.C. § 2244(b)(1). OP page 4 11 2 lines 1-3. [NOTE: Petitioner
also alleged that the prosecution withheld Smith's test results for the Sexually

(14)

Transmitted Disease (STD) Chlamydia i.e., exculpatory evidence.]
Earlier in the opinion the court made a [Prima Facie] determination on a
supplement to the § 2254 filing, however the court used it to justify Petitioner's
failure to make a [Prima Facie] showing of a claim that presents facts that "could
not have been discovered previously" and would establish the petitioner's actual
innocence by clear and convincing evidence. 28 U.S.C. § 2244(b)(2). (b)(3)(C). A
[Prima Facie] showing requires only "sufficient allegations of fact together, with
some documentation that would 'warrant a fuller exploration in the district court.
In re McDonald, 514 F.3d 539, 546 (6th Cir 2008). OP page 3 11 2 lines 3-7. It seems
the opinion addresses the supplement meant for the § 2254 and the Brady violation in
a vacuum. Finally finishing up with "Nor can McNees make a [Prima Facie] showing in
connection with his supplemental claim that the trial court lacked jurisdiction to
correct a clerical error in his judgment. That claim does not rely on newly
discovered evidence or a new rule of constitutional law. OP page 4 II 3 lines 1-3.
(Appendix-^*)
BRADY ANALYSIS
It has been suggested that this Court's reasoning in Panetti v Quarterman, 551 US
930 (2007) calls for finding that AEDPA's successive petition rules do not apply to
a second-in-time petition raising "an actionable Brady [v Maryland], violation that
the petitioner in exercising due diligence could not reasonably have been expected
to discover in the absence of the government's disclosure."
Establishing a Brady violation requires proof by preponderance of evidence (1)
the relevant evidence was favorable to defendant; (2) the state suppressed the
evidence; and (3) he suffered prejudice because of that suppression. USCA Const.
Amend XIV.
This Court established the principle that criminal convictions obtained by
presentation of known false evidence or by the suppression of exculpatory or

(15)

impeaching evidence violates the due process guarantees of the Fourteenth Amendment.
Giglio v United States. 405 U.S. 150, 153 (1959)j Napue; Brady.
This encompasses "evidence that the defense might have used to impeach [State's]
witnesses by showing bias and interest." United States v Baelev. 473 U.S. 667. 676
(1985). The duty to disclose continues throughout the judicial process. Pennsylvania
v Ritchie. 480 US 39, 60 (1987).

,.

. ..

Here, the court ignored the Supremacy Clause, Sixth Circuit precedent, and the
principles of Stare Decisis. The case of Jefferson v United States. 730 F.3d 537
(6th Cir 2013), addressed a scenario identical in the terms of impeachment evidence
as found here, determining that a defendant can assume a prosecutor, would not stoop
to improper conduct "to advance prospects for gaining a conviction." Id., at 545.
(citing Banks v Dretke. 540 US 668. 694 (2004).
The Jefferson court further stated that the defendant, "had no basis for
believing [the prosecution] had failed to comply with Brady." Id at 546 (citing
Strickier v Greene. 527 US 263, 287 (1999). Jefferson at 545.
In Banks, the government failed to turn over impeachment evidence of the
governments witness that would have aided the defense and "the prosecution raised no
red flag when the informant testified untruthfully." Banks 540 US at 675.
Ihis Court in Banks further "rejected the Fifth Circuit’s conclusion that the
defendant was not sufficiently diligent in pursuing her post-conviction claims
because she did not seek out evidence to support her claim of a Brady violation."
Banks

US at 688, 698. "Specifically, the court rejected the position that the

prosecutor can lie and conceal and the prisoner still has the burden to

••«

discover

the evidence so long as the potential existence of a prosecutorial misconduct claim
might have been detected." Banks 540 US at 696. The court concluded that "[a] rule
thus declaring 'prosecutor may hide, defendant must seek,' is not tenable in a
system constitutionally bound to accord defendants due process." Id.
Jefferson went further:
(16)

"Likewise, in Strickier, the Court explained that "[t]he presumption, well
established by tradition arid experience, that prosecutors have fully
discharged their official duties, is inconsistent with the novel
suggestion that [a] conscientious [defendant] [has] a procedural
obligation to assert constitutional error on the basis of mere suspicion
that some prosecutorial misstep may have occurred." 527 U.S. at 286-87.
Especially when the prosecutor "was an active participant in shielding any
evidence of the facts underlying the [Brady] claim, " a prisoner does not
have a burden to investigate whether there exists evidence that the
government had a constitutional obligation to disclose, but did not.
Douglas v Workman. 560 E.3d 1156, 1181 (10th Cir 2009)(holding that
petitioner could not, "exercising due diligence, have "uncovered the
existence of a deal" between the prosecutor and a cooperating witness any
sooner); see United States v Tavera. 719 F.3d 705, 711-12 (6th Cir
2013) (rejecting a rule that would require defendants to exercise due
diligence to discover exculpatory evidence in the government's
possession); ...." Jefferson at 546.
In Douglas v Workman, 560 F.3d 1156 (10th Cir 2009)(per curiam), the prosecutor's
willful misconduct in failing to disclose a tacit agreement of favorable treatment
in exchange for witness's testimony justified allowing Petitioner prisoner to
supplement his previous claim of prosecutorial misconduct in his initial habeas
petition with Brady claim instead of requiring prisoner to meet standard under 28
U.S.C. § 2244(b)(2)(B). To treat petitioner's Brady claim as a second or successive
would allow government to profit from it's own egregious conduct. Id. at 1189-90.
Finally, in the case of In re Wogenstahl. 902 F.3d 621 (6th Cir 2018) the court
held that "The prosecution has a constitutional obligation under Brady to provide
material exculpatory and impeachment evidence.

•••

and the defendant is not required

to request continuously Brady information in order to show due diligence."
Wogenstahl. at 628*629.
With this authority the Sixth Circuit still held this Petitioner to a due
diligence requirement. Ultimately, Jefferson's claims failed because he either
failed to demonstrate the existence of an undisclosed agreement with the prosecution
or failed to meet the prejudice prong of Brady.
However, that is not the case here. Smith had a preexisting deal that took a LIFE

(17)

sentence off the table, when asked what he faced for a sentence if he went to trial
this fact was concealed and/or lied about.
The Court's opinion omits that a lawyer found Smith's criminal history and that
prompted Petitioner to get his Register of Actions through a Freedom of Information
Request (F.O.I.A.) MCL 15.231 et.seq.. and Petitioner cannot submit any requests
himself, as a prisoner, under the statute. Until this evidence was discovered
Petitioner could only make bald face assertions which the federal forum will not
hear.
Petitioner did make efforts to obtain this evidence from the trial court on 2
separate occasions in motion's for production of documents on 11/21/2012, denied
11/30/2012, reconsideration denied 12/14/2012. (Appendix-R). Petitioner filed again
on 5/1/2017, denied 5/10/2017. (Appendixes), (Both motions sought Smith's SID test
results, Criminal History, and Deal for testimony).
The SID test results are still being withheld, the criminal history has been
completely unearthed, however, the deal has only been partially exposed and
Petitioner has made a [Prima Facie] showing of the Constitutional violation(s). Ihis
shows violation(s) of Napue. Giglio. and Brady, it is strongly suggested further
exploration is required.
ROLE OF THE JURY
It is the Anglo-Saxon tradition of criminal justice

••

that makes jurors the

judges of credibility of testimony offered by witnesses. United States v Bailey. 444
US 394, 414 (1980). Because it is the province of the jury to determine whether "a
particular witness spoke the truth or fabricated a cock-and-bull story,” Id at 414,
415. See also People v Wolfe. 440 Midi 508 (1992)(holding same).
In the instant case Smith was the linchpin to the conviction. Without the
withheld criminal history and all the facts concerning his plea deal the jury was
deprived of evidence relevant to ascertain this witnesses motivations to testify.

(18)

Which could have resulted in acquittal when taken together with the newly presented
evidence. See (Issue III).
When the Sixth Circuit determined:
"even if the jury had known that Smith had five prior felonies and had
three charges dropped in exchange for his testimony, that does not
demonstrate that McNees is actually innocent, given the other evidence
against him at trial, including detailed testimony by the victim, the
victim's friend, and McNees's former stepdaughter regarding sexual
assaults that McNees committed against them." OP page 3 fl 4 lines 7-8;
page 4 fl 1 lines 1-3.
They took on the role of the jury in weighing ail of the evidence. They also
erred because Petitioner's conduct with the 'girlfriend' was not a crime of sexual
assault under Michigan Law, as she testified that she was 17 when she consented to
the sexual act. See (Issue V). Petitioner is innocent in the instant case and the
totality of the evidence, newly discovered and newly presented, was for the jury to
weigh. Due to the foregoing this is not a constitutionally valid conviction.
Ill
DID THE FEDERAL AND STATE COURT’S ERR WHEN FAILING TO PROPERLY APPLY THE
LAW AND FACTS TO PETITIONER'S ACTUAL INNOCENCE CLAIM. DENYING PETITIONER
HIS RIGHTS TO EQUAL PROTECTION OF THE LAWS CONST. AM. XIV?
STANDARD OF REVIEW
In Schlup v Delo, 513 U.S. 298 (1995), this Court held that a habeas petitioner,
in seeking to overcame a procedural default for which cause and prejudice have not
been shown, must meet the "fundamental miscarriage of justice" exception of Murray v
Carrier, 447 U.S. 478 (1986), before a federal court may consider the underlying
constitutional claims. In order to do so, the petitioner must offer new reliable
evidence, not presented at trial, demonstrating he is "actually innocent" of the
crime for which he has been convicted. Schlup at 513 U.S. at 322-24.
Thus, a court must make its § 2244(b)(2)(B)(ii) determination - unbounded 'by the
rules of admissibility that would govern at trial' - based on 'all the evidence,
including that alleged to have been illegally admitted [and that] tenably claimed to

(19)

have been wrongly excluded or to have become available only after trial. Schlup at
327*328. Or to say it another way, the 'court must consider "all the evidence," old
and new, incriminating and exculpatory, without regard to whether it would
necessarily be admitted under [evidentiary rules]. House v Bell. 546 US 518, 538
(2006)(quoting Schlup 513 US at 328). Michigan also has a similar test. See People v
Johnson. 502 Mich 541 (2018)(a case where the Michigan Supreme Court allowed the
defendant to cross the procedural threshold of MCR 6.502(G). based upon a Brady
violation, and a case that changed MCR 6.508(D)(2)); see also People v Robinson. 503
Mich 883 (2018): People v Swain. 499 Mich 920 (2016). This was a courtesy not
extended to Petitioner on his Brady claim. Thus, for various reasons a denial of
Equal Protection under the law.
STATEMENT OF FACTS
Before Petitioner was accused of this crime the alleged victim (Alexa) would make
the following statements to investigators on April 6, 2010:
1) while consuming alcohol, Carter (Age 18) and Timmy (Age 20) engaged her
in various sexual activities;
2) McNees was not aware of her actions and had left the residence while
the sexual act occurred;
3) at around 2230 hrs., her and Timmy snuck downstairs and had
vaginal/anal sex;
4) McNees uses marijuana and "possibly" methamphetamines;
5) She had contracted a sexually transmitted disease (STD) known as
Chlamydia, one year prior she had become pregnant and ultimately had
an abortion. (Appendix-T, Instant case Police Report (PR) no. 10003377 pages 7-8 of 39).
This police report had attachment's of other sexual assault allegations by the
complainant, as follows:
a) KDPS case no. 07-3829; occurred 2/23/2007 reported 2/25/2007;
(Appendix-U) [no charges were filed as it was determined she was not
being truthful];
b) PPD case no. 08-013012; occurred 07/30/08 reported 8/6/2008; (AppendixU).
c) KCSD case no. 10-003377 (instant case) "Carter and Timmy", occurred
3/31/2010 reported 4/6/2010.
NOTE:
a) KDPS case no. 07-3829 the alleged victim made a false report of rape;
(Appendix-U);
(20)

b) Ihe alleged victim reports within 1 week irregardless of truth or
false!
c) The prior allegations also demonstrate the complainant does not change
her story;
d) PPD Case no. 08-013012 was prosecuted by Christine Bourgeois (P48001)
as was the instant case)
On April 12, 2010, during a Probate Court hearing Case no 10-0137-NA, the story
changes and now McNees purchased the alcohol and "used methamphetamines and
marijuana" in the presence of the alleged victim. Petitioner volunteered for a drug
screen and tested negative for methamphefamines and positive for marijuana (Medical
Marijuana) (Probate Court Transcripts, April 12, 2010 pages 7-8). (Appendix-V).
On April 14, 2010, another hearing was held in the Probate Court, the complainant
has not disclosed this purported heinous act, despite having 9 days to do so or one
could feasibly say 378 days since the date of the first alleged sexual assault,
December 24, 2008. (Probate Court Transcripts April 14, 2010 pages 1-36). (Appendix-

w).
On April 15, 2010, the alleged victim comes forth with allegations against
Petitioner. (Apendix-T, PR page 10 of 39).
On April 20, 2010, Child Protective Services (CPS) investigator, 'Sarah Font*
authored an e-mail to Detective Mattison. This document provides a statement made by
the alleged victim:
# • • Also around that time she contracted Chlamydia. She stated that she
was not sexually active with anyone else at that time and therefore could
not have gotten it from anyone other than David." (E-Mail from Sarah
Font). (Appendix-X) |. There’was no impeachment by counsel at trial].

This is exculpatory evidence. See (Appendix-Y, STD test results of Petitioner and
Alexa).
The allegations of the CPS case would be amended to state the aforementioned
statement.
On April 26 , 2010, a forensic interview was conducted on the complainant. Now the
story has changed again to include Jeff Smith. During this interview she would make

(21)

two (2) differing statements concerning the first time meeting Smith:
a) That Jeff touched her at the lake and then we went home and that's how
it started. (Appendix-T, PR pg 21 of 39) [NOTE: This is Smith's
trial testimony];
b) That now Jeff and David took her back to Jeff's and had sex with her.
(Appendix-T, PR pg 29 & 30 of 39). [NOTE: Alexa’s trial testimony].
Trial counsel did not impeach Smith here and it appears Smith studied to testify.
The alleged victim would also reiterate her first statement that her and Timmy
had sex that night. (Appendix-T, PR pg 35 of 39). And she would continue to try to
implicate Petitioner in drug use and manufacturing. (Appendix-T, PR pg 37 of 39).
At trial the complainant testified as follows:
PROSECUTOR: Alexa, 1 'm gonna have you skip forward to the point where 1
know you were with Timmy and Carter at some point during
the evening. Can you tell me where David MCNees comes into the
picture?
ALEXA:

Yes. David got back, and my brother saw what happened with
Timmy and Carter, he—so he ran upstairs and told David.
And David didn't do anything about it.
And then after Logan went to bed Timmy and Carter left,
David took me upstairs, and it was - you know, it was David
and Timmy. They took me upstairs and they had sex with me.

PROSECUTOR: David and Tiinnv did?
ALEXA:

Yes.
. •

i -

•

,

PROSECUTOR: Alexa, have you reported that to ,anybody before today?
ALEXA:

What?

PROSECUTOR: Did you report that when you gave your statement before? That
you had sex simultaneously with—with David and Timmy?
Did you report that to the police?
ALEXA:

Not at first.

PROSECUTOR: Do you—did you report it to them later?
ALEXA:

I believe so, yes. I —

PROSECUTOR: You're not sure?
ALEXA:

1 don't remember. 1 —

PROSECUTOR: But that's the last time you remebering having sexual
(22)

intercourse with David McNees?
ALEXA:

Yes. (IT Vol II Pgs 319 Lines 4-25 and pg 320 lines 1-4).
(Appendix-Z)

The alleged victim was never impeached by trial counsel concerning this
inconsistent statement, and the other inconsistent statements.
On May 14, 2010, Det. Mattison made contact with Jeff Smith and asked him about
the sexual allegations and Smith advised that he did not know what the officer was
talking about. (Appendix-T, PR pg 17 of 39). Smith was not impeached with this
inconsistent statement.
A few months before these events took place there was an incident with Alexa. On
the weekend of Valentine's day of 2010, (Alexa) walked in on Petitioner while he was
in the shower. Petitioner informed his then wife Teresa that he believed Alexa was
pursuing him and Alexa would later make a suicide attempt via taking several
tylenol's. These facts were recorded on 2/16/2010 via a nurse Borgess Medical
Center. (Appendix-Al). During the trial these material facts were omitted when
evidence of her 'suicide' attempt came in as evidence.
Alexa Johnson also ha$ $ history of suicide attempts, when she was 13, [before
Petitioner entered her life], as she admits to Megan C. Freed Borgess Emergency. She
also alleged Petitioner was dabbling with methamphetamines. (Appendix-Bl, pg 1 11 3
lines 5-11 and pg 2 11 1 lines 1-2). This evidence is offered to show this childs
state of mind.
A few years after trial Petitioner secured three affidavits from witnesses
Jonathon McCormick (Resident at 4858 Rollridge at the time these incidents were to
have occurred at the residence). (Appendix-Cl). The other two witnesses are
Petitioner's parents Mr. David McNees, Sr. (Appendix-Dl) and Mrs. Ruth McNees,
(Appendix-El) each witness testifies to the immense problems Petitioner had with
Alexa and Jessica Dodd, along with how much Alexa changed her story. Petitioner has

(23)

has also authored 2 affidavits laying out facts he will establish at a new trial
and/or evidentiary hearing. (Appendix-Fl).
Lastly, if the prior conviction is removed and the evidence of the legal act with
Jessica Dodd is removed as a listed offense, inadmissible as such, under Michigan
Law, and the prejudice that attached by their use were removed as well, and the rest
of the facts were to be weighed by a reasonable minded jurist there will be
reasonable doubt as to Petitioner's guilt by clear and convincing evidence.
The defense theory was that these allegations were being fabricated. However,
none of these facts were properly weighed by the jury due to ineffective assistance
of counsel by failing to investigate, object or present the evidence. A defense
further hindered by prosecutorial misconduct by concealing evidence and making false
statements of fact.
With the discovery of Smith's withheld criminal history and true deal, a [Prima
Facie] showing has been made to warrant an evidentiary hearing to further explore
into the validity of the claims of innocence and the Brady violation concerning the
exculpatory lab reports of STD testing.
On the face it appears that the prosecution may have merely sought a conviction
while allowing the real perpetrator of the sexual assault against Alexa to go free.
The Sixth Circuit's rationale:
"that does not demonstrate that McNees is actually innocent, given the
other evidence against him at trial, including detailed testimony by the
victim, the victim's friend, and McNees's former stepdaughter regarding
sexual assaults that McNees conmitted against them."
Was a determination of the record only. Not the analysis as required under House
and Schlup. A reasonable jury would not have found Petitioner guilty had all the
evidence been weighed. As Smith was the only witness to say he actually participated
and saw the sexual acts and now his credibility has been undermined severely.
Here, the prosecution gave a person with 5 felonies a deal to testify, she then
deceived the jury about that deal. To completely stack the deck the prosecution
(24)

insured the scientific evidence was never weighed by the jury.
The physical evidence, if proven and believed, is certainly enough to make a
priraa facie showing and it is incumbent that the court allow the SID evidence to be
reviewed and judged in a full evidentiary hearing before the district court. Keeney
v Tamayo-Reyes, 504 U.S. 1 (1992); Stanford v Parker. 226 F3d 442, 460 (6th Cir
2001)("A party shall be entitled to invoke the processes of discovery available
under the Federal Rules of Civil Procedure if, and to the extent that, the judge in
the exercise of his discretion and for good cause shown grants leave to do so, but
not otherwise) Rule 6. Petitioner asks this court to grant him this discovery of
this evidence and a full evidentiary hearing.
IV
DID THE FEDERAL AND STATE COURT'S ERR WHEN FAILING TO ADDRESS A FRAUD UPON
THE COURT THAT IS SUBSTANTIATED WITH FACTS NEEDING EXPANSION OF THE
RECORD?
STANDARD OF REVIEW
The power to punish for contempts is inherent in all courts. Chambers v NASCO,
Inc., 501 U.S. 32, 45; 111 S.Ct. 2123 (1991). A federal court has power to conduct
an independent investigation in order to determine whether the court has been the
victim of fraud. Universal Oil Products Co. v Root Refining Co., 328 U.S. 575, 580;
66 S.Ct. 1176 (1946).
FACTS
On July 9, 2010, a Warrant probable cause hearing was held and Deputy Charlie
Hill testified:
"...the sister [Catherine Ritchie] overheard him [Petitioner] and the
juvenile talking about their relationship." [Clarification added]
(Probable Cause Transcript, pg 5 lines 3-4). (NOTE: This is a false
statement) See (Appendix-Gl)
During the preliminary exam Alexa was cross-examined:
"Q. Okay. And when you realized that he didn't love you isn't — isn't
that when you decided to talk with the counselor at school?
A. No." (Prelim pg 23 lines 22-25, (Appendix-Hl).

(25)

The prosecutor in closing:
It was only after she realized that he didn’t love her « • • • So she
ended up telling at that point. (TT Vol III pg 459 lines 7-11)(Appendix11, for all prosecutors closing and rebuttal cited hereafter)
t • •

*

*

*

"Alexa Johnson is not sophisticated enough to pull off this huge of a lie.
She maintained a consistent story. David McNees would have you believe
that she’s so sophisticated she can maintain this lie over all this time,
maintain it talking to the police, the prosecutor, to the forensic
interviewer, to her mother, to everybody that dealt with her, and 14
jurors. He wants you to believe that, you're asked to believe not only
that she's a liar, but that she's a darned good liar. She's not that
sophisticated. You saw her." (TT Vol II pg 464 lines 12-21).
*

*

*

"The answer is Alexa's telling the truth. They had a secret and she kept
that secret. David McNees is still keeping that secret. They had a secret,
they had a secret relationship for a very long time." (TT Vol III pg 465
lines 10-13).
*

*

*

"You've heard David McNees's testimony. Everybody else is lying, everybody
has a bone to pick with him. Three month's rent, getting caught in
inappropriate behavior in the basement with other kids. The
other
rationale that he offered, that he didn't have chlamydia, that he does
smoke marijuana but he's entitled to smoke marijuana. Does it really
matter if he had chlamydia or not? Were only hearing this from David
McNees. ..." (TT Vol III pg 465 lines 19-25; pg 466 line 1).
Trial counsel never objected to any of these false statements and he closes with:
"No evidence of Alexa having a sexually transmitted disease, although
there is evidence that she said that the Defendant gave he a sexually
transmitted disease, now that didn't come out on the prosecutor's case, it
came out on the defense case. The reason the defense brought that out was
to demonstrate to you how the story has changed, ..." (TT Vol III pg 473
lines 17-23) (Appendix-Jl, for all counsel's closing cited here)
*

JU

*

"... So she makes an allegation that David's using methamphetamine, child
protective services case is ongoing. That didn' t get him out of the house.
So after he got his money, he gave the — that she knew was coming —
gave the money to her mom, she knew how to get him out of the house,
because he'd been convicted of this before. So when the allegations of the
methamphetamine, and the cigarettes, and the beer, and the marijuana, and
all that didn't work, all the sudden this comes out." (TT Vol III pg 475
lines 16-25).

(26)

The prosecutor rebuts:
“What about those witnesses? Jessica Dodd held a grudge because David
McNees booted her out and booted sane boy out how long ago? She’s held
that grudge all this time and came in to get him cause she was mad about
it? Jeff Smith's here because he didn't get three month's. You saw his
reaction. (NOTE: After the judgment Smith's foreclosure, caused by
Petitioner not paying him, was also discovered by Appellant Counsel, see
[Appendix-Kl]). You saw his reaction, he forgot about it. Do we reallv
believe that?
The only story you know about CPS, and drug allegations, and what's
going on in that house is from the mouth of David McNees. And I suggest to
you that just because someone stands up there and raises their right hand
and says I promise to tell the truth, that doesn't always happen. It's
your job to determine credibility, and the judge will give you an
instruction on that. And you've got a credibility issue here because David
McNees disagrees with everybody that came up here and told otherwise." ?TT
Vol Illpg 485 lines, 1-16).
ANALYSIS
Where judicial and investigative resources are vested does this allow a
prosecution regardless of the prior inconsistent statements, and the scientific
evidence proving the allegations and theory impossible?
It is clear that the prosecutor deliberately misled the jury about the prior
inconsistent statements as provided in Issue III, and further defied the physical
realities. Counsel should have objected at least once.
To compound this egregious conduct the prosecution never disclosed Smith's
criminal history and the details of his deal.
It is Petitioner's position that the prosecution deliberately planed and
carefully executed a scheme to defraud the court and obtain this conviction while
letting the real perpetrator to go free.
Ibis Court does not tolerate fraud, Atlas Glass Co. v Hartford-Empire Co.. 322
U.S. 238, 245-246 (1944). “Tampering with the administration of justice

••

is a

wrong against the institutions set up to protect and safeguard the public,
institutions in which Fraud cannot complacently be tolerated consistently with the
good order of society." Cummings v Wayne Co.. 210 Mich App 249, 252 (1995).

(27)

In Michigan when one alleges a fraud upon the court and there are copnflicting
allegations and affidavits with respect to whether there has been a fraud the trial
court is required to conduct an evidentiary hearing to get to the bottom of it.
Kiefer v Kiefer, 212 Mich App 176, 179 (1995) This was another protection under law
denied Petitioner.
Fraud upon the Court is conduct:
(1) on the part of an officer of the court,
(2) that is directed to the judicial machinery itself,
(3) that is intentionally false, willfully blind to the truth, or in
reckless disregard for the truth,
(4) that is positive averment or a concealment when one is under a duty to
disclose,
(5) that deceives the court.
In other words, an officer of the court must have intentionally or recklessly
failed to disclose information that would have the result of deceiving it. Workman v
Bell. 227 F3d 331, 335-337 (6th Cir 2000).
Here, the prosecution deliberately deceived the court and jury by making
misleadingly

false statements during closing and rebuttal.

She suppressed

exculpatory and impeachment evidence, and craftily circumvented the inconsistent
statements of her witnesses and the exculpatory evidence.
Ihe fact remains this evidence was never properly in front of the jury. Ihis
court in Alcorta v Texas. 355 US 28 (1957), held that the prosecutions presentation
of evidence that creates a "false impression" and the suppression of evidence that
"corroborates" the defendant's theory of defense violates due process under the
principles enunciate in Mooney v Holohan. 294 US 103 (1935) and Pyle v Kansas. 317
US 213 (1942), Alcorta 355 US at 31-32.
Here, the prosecution's conduct did not comport with due process. She misled the
court and jury about Alexa's disclosure i.e., facts that occurred in another court,
and facts that occurred during the police investigation. Her deputy made false
statements of material fact during the Warrant hearing and he (Knitted facts that

(28)

would have negated probable cause for the warrant. She concealed the full extend of
Jeff Smith's deal and concealed his full criminal history.
Finally, the question remains, concerning the misleading statements, Alexa's
prior inconsistent statements and the SID evidence, presuming he investigated, is;
Why didn t trial counsel object to this fraud? As pursuant to Nix v Whiteside. 475
US 157, 158 (1986), and Michigan Rules of Professional Conduct, he had an ethical
obligation to do so.
this is why an evidentiary hearing is required to get to the bottom of this
fraud. Bell supra. This is an unconstitutional conviction.
V
HAS IT BEEN OVERLOOKED THAT PETITIONER'S FEDERAL AND STATE CONSTITUTIONAL
RIGHTS TO DUE PROCESS OF LAW AND EQUAL PROTECTION WERE VIOLATED WHEN A
LEGAL ACT UNDER MICHIGAN LAW WAS USED AS A LISTED OFFENSE DURING TRIAL,
AFFECTING THE ENTIRE PROCEEDING?
STANDARD OF REVIEW
Constitutional due process, whether is applies and, if so, has been satisfied is
reviewed de novo Chapman v California, supra.
FACTS
Before trial the Prosecution moved to enter other acts pursuant to MCL 768.27a
"Listed Offenses". The acts sought for admission were Petitioner's prior conviction
from 1992, which was a listed offense. The other act sought to be admitted as a
"Listed Offense" was Petitioner's sexual conduct with a 17 year old vho testified
that she consented to the sexual act.
Here, the Michigan Court of Appeals, (OQA) in connection with Petitioner's
assertion that Counsel was ineffective for failure to object to the admission of
Jessica Dodd's testimony under MCL 768.27a where she was 17 years of age and no
listed offense occurred, the court citing a single case, denied relief holding:
"First-degree criminal sexual conduct, MCL 750.520b is a "listed, .offense
in MCL 28.722. Further JD was a "minor" within the meaning of MCL 768.27a
because she was under age 18 when the conduct occurred. Thus, her
testimony was properly admissible under MCL 768.27a" (Appendix-J, pg 6).
(29)

Petitioner submits that the court's decision unfairly narrows the requirements of
MCL 768.27a. As the court quoted it is "evidence that the defendant committed
another listed offense against a minor, which is admissible." MCL 768.27a. When the
consensual acts between JD and Petitioner are said to have occurred, she was, as
acknowledged by the Court, 17 years old. Under MCL 750.520 et. seq., there are no
defined offenses for consensual sexual acts between a 17 year old based upon that
age factor alone. It cannot then be said to be a criminal sexual conduct in the 1st
degree as incorrectly found here.
Michigan's Supreme Court assessed the application of MCL 768.27a to facts
analogous to this matter i.e., a male over 18 and a female over 16, in the case of
People v Watkins. 491 Mich 450 (2012) holding:
"However, E.W. also testified that her relationship with defendant
continued on until she reached 17 pursuant to MCL 750.520d, then, after
E.W. turned 16 years old, the sexual acts described would no longer
constitute a crime, and thus, would not constitute a listed offense
admissible as other acts evidence under MCL 768.27a." Id.,t at 463 fn 21).
Clearly this was a manifest injustice and a clear due process and equal
protection violation.
Petitioner does not conclude that the states failure to follow their own
authority and statutes is the extent of the denial of his due process rights. While
the court's failure above is evident, the court's decision on the issue does not end
there. The court concluded, outside of their authority, that:
"Moreover, even if JD's testimony was not admissible under MCL 768.27a, it
would likely have been admissible under MRE 404b because JD was a very
close friend of AJ, and the conduct demonstrated defendant's scheme, plan
and intent to engage in sexual relations with young women similar in age
to AJ. Thus, counsel did not render ineffective assistance by failing to
object to JD's testimony regarding her sexual activity with defendant."
(Appendix-J, pg 6)
Admission of similar acts evidence under MRE 404(b) is a matter for the trial
court's determination, and while that discretion will not be disturbed on appeal

(30)

absent an abuse of discretion. People v Sorscher, 151 Mich App 122 (1986). Where the
matter was not before the trial court in the first instant an Appellate court is
without authority to conclusory determine the admissibility of such evidence as to
do so usurps the authority vested in the trial court only. People v Johnson, 58 Mich
App 1 (1975)("The admissibility of evidence of prior acts for the purpose of showing
defendant's motive, intent, absence of mistake, or defendant's scheme, plan, or
system of doing the act is within the discretion of the trial court").
Further the finding that the testimony of JD could have "likely" been admitted
under MRE 404(b) relieves the prosecution of it's burden of proof. People v Garth,
93 Mich App 308, 314 (1979):
"Prosecutor has burden of persuading judge regarding admissibility of
evidence of prior conviction."
Petitioner submits that not only does the court's decision usurp the authority of
the trial court, and the prosecution, but it rationalizes the admissibility of MRE
404(b) evidence without any consideration beyond opinion of relevance. Such a
determination has been said by the Michigan Supreme Court to be intolerable:
"We today specifically disapprove of this appellate practice, Ihe
appellate process of disseminating written opinion is not intended to
provide the Bench, the bar, and the parties with bare conclusory analysis
and a list of abstract principles of law. The very point of appellate
opinion, rather than summary orders, is the explanatory application of
abstract principles to particular fact situations. In the instant, case
this Court and the parties to this litigation had no way of ascertaining
which, if any of the citations in the appendix were intended to support
the court's conclusions with regard to improper classification, we
recognize the tremendous burden of the Court of Appeals' ever-increasing
docket. Nonetheless, we will not lend our imprimatur to the use of
appellate opinions which do not hew to the established practice in
Michigan of informing the parties, the bench, and bar of the precise
grounds for decision of the legal question in controversy." Allexander v
City of Detroit, 392 Mich 30, 39-40 fn 3 (1974).
In Howard v Grinage, 82 F3d 1334 (6th Cir 1996), the court held that: "the
district court applied an incorrect legal standard and reversed the judgment and
remanded with instructions that the appropriate legal standard be applied). Grinage
at 1346, 1353.
(31)

Michigan's CQA has consistently rejected such a decision as rendered here, in
People v Bowers. 135 Mich App 284 (1984) the court elaborated that "It is error to
allow introduction of evidence concerning a separate and unrelated criminal offense
absent sane proof the individual on trial for the primary offense had in actuality
conmitted the other criminal activity; suspicion and speculation that both crimes
are related are insufficient to warrant introduction of such highly prejudicial
evidence."
Petitioner submits as much as the court's conclusory decision in regard to JD's
testimony violates due process, it will pale in comparison with the denial of the
constitutionally required notice and opportunity to be heard provisions which will
be denied to Petitioner should this opinion be upheld.
For arguments sake, had the evidence been admissible under a properly noticed,
and ordered admission by the trial court as due process requires, then at trial the
Jury would have had to be instructed in accord with the limited purpose of the
evidence. The COA has held as much in People v Mitchell. 223 Mich App 383 (1997),
holding:
"Our Supreme Court has held that when the prosecution introduces evidence
that tends to show commission of another criminal offense by defendant,
the defendant is entitled to a limiting instruction, and the failure to
give the instruction, when requested, warrants reversal. People v
DerMartzex, 390 Mich 410, 416-417 (1973); see also People v Chism. 396
Mich 104, 119-120 (1973). this case presents the question whether reversal
is also warranted when trial court's refusal to give the requested
limiting instruction follows the introduction by the defendant rather than
the prosecution of evidence of another crime by the defendant. We hold
that it is." Id.t at 397.
Since counsel did not object to the admission of the evidence under MCL 768.27a.
counsel did not have an opportunity to request a limiting instruction for the jury
under MRE 404(b) to only consider the evidence for it's limited and offered purpose.
If the COA decision stands, Petitioner will still be denied a fair trial where the
jury was able to consider the evidence for whatever purpose they chose as is allowed
by MCL 768.27a.
(32)

The affirmation of Petitioner's conviction where; JD's testimony was not
admissible under MCL 768.27a: there was no notice as required by MRE 404(b): the
prosecution did not state a proper purpose for admissibility; the trial court did
not exercise any discretion on the matter determining where the evidence was
admissible; and Petitioner was not permitted to have the evidence restricted to it's
proper purpose, he has, and will continue to have been, denied a fair trial under
both the Michigan and United States Constitution. The CQA decision affirming the
conviction in this matter must be addressed and ultimately a new trial ordered. For
the foregoing this is not a constitutionally valid conviction, as it is a denial of
Due Process and Equal Protection of the Law. Const. Ams. V, VI, and XIV. See Estelle
v McGuire, 502 US 62 (1991).
VI
DID THE FEDERAL AND STATE COURT'S ERR WHEN FAILING TO ORDER AN EVIDENTIARY
HEARING TO SUBSTANTIATE PETITIONER’S CLAIMS OF CONSTITUTIONAL
VIOLATION(S). (1) PROSECUTORIAL MISCONDUCT; (2) INEFFECTIVE ASSISTANCE OF
TRIAL AND APPELLATE COUNSEL(S). WHERE HE HAS PROVIDED A PRIMA FACIE
SHOWING OF THOSE DEPRIVATIONS.
STANDARD OF REVIEW
PROSECUTORIAL MISCONDUCT
Because the prosecutorial misconduct was not objected to the review is for plain
error affecting substantial rights. People v Watson, 245 Mich App 572, 586 (2001);
United States v Plano, 507 US 725, 763-764 (1993).
ANALYSIS
As presented in the previous issues of this Brief Petitioner has made a [Prixna
Facie] showing of prosecutorial misconduct that effected substantial rights. The
prosecution employed unfair tactics to gain an advantage in this matter. US Const,
Am XIV; Const 1963, Art 1, § 17; Donnelly v DeChristoforo, 416 US 637, 642 (1974).
STANDARD OF REVIEW
INEFFECTIVE ASSISTANCE OF TRIAL AND APPELLATE OOUNSEL(S)

(33)

Ihe performance and prejudice prongs of an ineffective assistance of counsel
claim are mixed questions of law and fact reviewed de novo. Strickland u
466 US 668, 698 (1984).
ANALYSIS
Petitioner has the right under the Federal and State Constitutions to the
effective assistance of counsel. US Const. Am VI: Const 1963. Art 1 § 20:
Strickland. 466 US at 668. This guarantee extends to the appellate stages.
Satterwhite v Texas. 486 US 249, 256 (1988). To prevail on this claim Petitioner
must establish; 1) counsel's performance was deficient i.e., "outside the wide range
of professionally competent assistance." Id^, at 690, and 2) that the deficient
performance prejudiced the Petitioner. Id., at 687. That means that the result of
the proceedings would have been different. Id., at 694.
Petitioner; through the police report(s), probate court proceedings, and probable
cause hearing has shown that both trial and appellate counsel were deficient in
their representation, by failing to investigate and present evidence. However, that
is not the extent of their failures, as both attorneys; concerning the only
exculpatory physical evidence Petitioner could have used at trial; gave the
following advice:
"And, he (trial counsel) did not believe that whether or not you had
chlamydia would be significant, given the fact that the prosecutor did not
bring up whether or not Alexa ever had chlamydia. I will have to review
the transcript again, but I do not believe Alexa ever testified to having
chlamydia." (Clarification added), (Appendix-Ll, April 25, 2011 letter
from Appellate Counsel page 1 II 3 lines 6-9)
*

As to your question why I did not include the "issue" regarding the STDs,
it is because I believe it has absolutely no merit at all, and your trial
attorney was absolutely correct in concluding that such evidence would be
barred by the Rape Shield Act. I spoke to your attorney concerning his
strategies, and I concurred with them." See (Appendix-Ll, February 4, 2012
letter from Appellate Counsel page 1 11 2 lines 1-4).
As provided in Appendix-X, Alexa claimed Petitioner was the only one she was

(34)

sexually active with when she was infected with chlamydia. In Appendix-Y, we find
that Alexa in fact did have chlamydia, and Petitioner did not. And during trial
Alexa testified:
COUNSEL: Do you remember telling investigators that David McNees gave you
chlamydia?
ALEXA:

Yes Sir. (Appendix-Mi TI Vol II page 329 lines 19-21).

Under Michigan law the Rape Shield Law MCL 750.520i pertinently provides:
Evidence of victim's sexual conduct.
(1) Evidence of specific instances of the victim's sexual conduct, opinion
evidence of the victim's sexual conduct, and reputation evidence of the
victim's sexual conduct shall not be admitted under sections 520b to 520g
unless and only to the extent that the judge finds that the following
proposed evidence is material to a fact at issue in the case and that its
inflammatory or prejudicial nature does not outweigh its probative value:
(a) Evidence of the victim's sexual conduct with the actor
(b) Evidence of specific instances of sexual activity showing the
source or origin of semen, pregnancy, or disease.
(2) If the defendant proposes to offer' evidence described in subsection
(l)(a) or (b), the defendant within 10 days after the arraignment on the
information shall file a written motion and offer of proof. The court may
order an in camera hearing the determine whether the proposed evidence is
admissible under subsection (1). If new information is discovered during
the course of the trial that may make the evidence described in subsection
(l)a or (b) admissible, the judge may order an in camera hearing to
determine tdiether the proposed evidence is admissible under subsection
(1). (Emphasis added).
This is not a new statute, it has existed for many years. See People v Arenda,
416 Mich 1, 12, 18-19 (1982)(instances of the victim's sexual activity showing the
source or origin of semen, pregnancy, or disease, or the victim's prior sexual
conduct with anyone other than the defendant which is material to a fact in issue
and is constitutionally required to be admitted, and offer of proof must be made in
camera to afford the trial court an opportunity to weigh the probative value of the
evidence against any prejudicial effect, and thus to balance the interest of the
state promoting efficient prosecution of such cases against the defendant's rights
to confront witnesses and to present his defense (MRE 412); See also People v Adair.
(35)

452 Mich 473, 478-480 (1996); Gagne v Booker, 680 f3d 493,. 519 (6th Cir 2012).
It is clear that both attorney took on the role of the judge concerning the Rape
Shield Law.
Ibis court has addressed an issue similar to this legally not factually in the
case of Nix v Whiteside. 475 US 157, 189 (1986), where the attorney denied the
client loyal advocacy. When attorneys adopt "the role of the judge or jury to
determine the facts," citing United States ex rel Wilcox v Johnson. 555 F2d 115, 122
(CA3 1977), it poses a danger of depriving their clients of the zealous and loyal
advocacy required by the Sixth Amendment. See Nix at BN 8.
Although the state courts have been provided the aforementioned facts there has
been no evidentiary hearing*
Petitioner submits that he properly sought remand pursuant to People v Ginther,
390 Mich 436 (1973). Like Ginther, Petitioner alleged that the grounds for a new
trial were sought on grounds that needed to be established by testimonial record,
presented to the trial court during remand. Like Ginther. the claim was a number of
"denial of effective assistance of counsel claims."
In seeking to comply with the dicta in Ginther, in pleading Petitioner complied
with the dictates as did Allison in Blackledge v Allison, 431 US 63, 74 (1977),
where he properly placed in detail, that he had a verifiable claim and supported as
affiant putting forth specific allegations needing to be developed on a testimonial
record i.e., the police report(s) of inconsistent statements and false allegations
of a similar nature, probate court record, and the scientific evidence. Only to have
that denied and then the State Court of Appeals would affirm his conviction and
point to Petitioner as failing to develop the very facts needed to substantiate the
ineffective assistance of trial counsel claim.
This is similar to McClellan v Rapelii. 703 F3d 344, 351 (6th Cir 2013)(Factual
question cannot be considered as "a ground presented" to and decided by an appellate

(36)

court when it was 1) not decided by the trial court, 2) not the subject of any
finding of fact made by the trial court, and 3) not included in any trial court
record filed or presented to the appellate court).
Petitioner avers that this instituted process by the State of Michigan, is
supposed to operate in accord with due process and the protections therein. See
Evitts v Lucev. 469 US 387, 395 (1985). Even when there is discretionary elements to
that procedure. Joint Anti Fascist Refugee Committee v McGrath, 341 US 123, 165-166
(1951).
When Petitioner contendedthat counsel failed to properly investigate his case,
the State Court of Appeals, without remand determined:
"Here, defendant has failed to demonstrate prejudice as a result of
counsel's alleged unpreparedness, and nothing in the record indicates that
counsel failed to present all substantial defenses. "A substantial defense
is one that might have made a difference in the outcome of the trial. Id.
Defense counsel cross-examined AJ, argued that she was not credible, and
cross-examined Smith regarding his motivation to testify against
defendant. Because defendant cannot demonstrate prejudice and all
substantial defenses were presented, this claim of error lacks merit. '
(Appenix-J, COA Opinion page 5 II 2 8-14)
When it came to the prior false allegations of rape by Alexa and the inconsistent
statements the State Court of Appeals determined that:
"Because the reports are not included in the record, however, and our
review is limited to mistakes apparent on the record, Jordon, 275 Mich App
at 667, they are beyond the scope of our review. Further, noting in the
record suggests that AJ in fact made false accusations of rape previously.
Thus, defendant has failed to demonstrate a reasonable probability that
the result of the proceeding would have been different but for counsel s
alleged error. Frazier, 478 Mich at 243. (Appendix-J page 5 II 2 lines 611).
Based upon the previous issues and facts needing expansion of the record
presented herein there was quite a substantial defense counsel did not present. No
defense was raised and Petitioner was left with nothing but attorney(s) in name
only, and the presumption of correctness of the State Court of Appeals is overcome.

(37)

CONCLUSION
Trial counsel did not cross-examine Alexa about her inconsistent statements, he
never pointed out to the jury that Alexa changed her story over and over and over
again concerning Petitioner. This allowed the prosecutor to conceal these facts, the
error was augmented by the horrendous legal advice and makes it appear that he may
have been a party to the fraud, and appellate counsel co-signed it.
No defense was put forth by counsel and that prejudiced Petitioner. Had the
exculpatory evidence and the inconsistent statements been weighed by the jury a
different result would have occurred.
For the foregoing reasons set forth in this brief, the petition for writ of
certiorari should be granted.

(38)

